HHS/OIG, Audit -"Medicaid Payments for School-Based Health Services - Massachusetts Division of Medical Assistance - July 1999 Through June 2000,"(A-01-02-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for School-Based Health Services - Massachusetts Division
of Medical Assistance - July 1999 Through June 2000," (A-01-02-00009)
July 16, 2003
Complete Text
of Report is available in PDF format (2.1 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based
health services by the Massachusetts Division of Medical Assistance (DMA) were
reasonable, allowable, and adequately supported in accordance with the terms of
the State Medicaid plan and applicable Federal regulations.  Based on our
review of claims data at the eight selected local education agencies (LEA), we
estimated that at least $2,997,268 (Federal share) was ineligible for reimbursement.  In
this regard, we found that:  (1) sufficient documentation was not always maintained
to ensure that services prescribed in the students' individualized education plans
(IEP) were delivered; (2) school-based health services were rendered by health
care providers that did not have the qualifications required by DMA; (3) claims
were submitted for students who were absent; (4) IEPs were not available to cover
periods in which the Medicaid program was billed; and (5) the school-based service
type was sometimes billed incorrectly.
We recommended that DMA:  (1) provide training and technical assistance to
LEAs, (2) review all guidance issued to LEAs relative to the school-based health
program for clarity and completeness and reissue, as needed, (3) design a monitoring/audit
system to ensure that LEAs comply with Medicaid requirements, (4) develop a new
fee-for-service methodology for school-based health services that complies with
Federal documentation requirements, (5) discontinue providing listings of Medicaid
eligible students to LEAs, (6) establish procedures consistent with Centers for
Medicare and Medicaid Services (CMS) requirements regarding electronic transmission
of data which contain uniquely identifying information, and (7) refund to CMS the
$2,997,268 (Federal share) that was inappropriately paid by the Medicaid program
to the eight LEAs.